audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs, Fiscal Year 1997
Corrections Technical Assistance Program between the
Corrections Program Office and the Criminal Justice Institute, Inc.


GR-70-99-003
March 1999

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of cooperative agreement number 97-CE-VX-K001 awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Criminal Justice Institute (Institute). The Institute received awards totalling $2,450,2471 to support the Corrections Program Office in its efforts to provide technical assistance to state and local correctional officials. The project period of the agreement is May 19, 1997 to June 1, 1999. As of August 31, 1998, the Institute had expended approximately $1,216,000 of the agreement funds.

Our audit concentrated on, but was not limited to, the period May 19, 1997 through October 9, 1998. We tested the administrative and financial controls established by the Institute and determined if costs charged to the grant were allowable, allocable, and reasonable. For purposes of this review, we used: the Office of Management and Budget (OMB) Circular A-110, Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and Other Nonprofit Institutions; OMB Circular A-122, Cost Principles for Nonprofit Organizations; OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations; and the OJP Financial Guide.

We found that the Institute was implementing activities to meet agreement objectives. However, we found that the Institute violated the following agreement conditions. 

Vacation and sick day expenditures charged to the agreement were unsupported. As a result, we question the $32,897 the Institute received as reimbursement for these unsupported fringe benefit costs.

	Salary, retirement, employer social security, disability, unemployment, and health insurance expenditures charged to the agreement were unsupported. As a result, we question the $531,053 that the Institute received for these unsupported costs.

	The Institute did not have a reasonable method for allocating salary and fringe benefit costs to the agreement.

	Some consultant fees charged to the agreement were unsupported. As a result, we question the $20,000 the Institute received as reimbursement for these unsupported consultant fees.

	The Institute did not submit financial status reports and semi-annual progress reports in accordance with the requirements of the agreement. 

These items are discussed in the Findings and Recommendations section of the report. Our Scope and Methodology appear in Appendix II.